U.S. Department of the Interior
Office of Inspector General




           AUDIT REPORT


   DRAINAGE PROTECTION PROGRAM,
    BUREAU OF LAND MANAGEMENT

             REPORT NO. 99-I-358
                MARCH 1999
                                                                         C-IN-BLM-002-98-D


              United States Department of the Interior
                                   OFFICE OF INSPECTOR GENERAL
                                        Washington, DC 20240

                                                                  MAR 2 6 1933


                                       AUDIT REPORT
Memorandum

To:        Director, Bureau of Land Management

From:     Robert J. Williams - +Y  &‘T cs/ccf&
          Assistant Inspector General for /udits

Subject: Audit Report on the Drainage Protection Program, Bureau of Land Management
          (No. 9 9 - I - 3 5 8 )


                                      INTRODUCTION
This report presents the results of our review of the Bureau of Land Management’s drainage
protection program. The audit objective was to determine whether the Bureau, which is
responsible for managing the program, identified all potential drainage situations and
required lessees to drill wells and produce the oil or gas necessary to prevent drainage or pay
compensatory royalties for the drained resource.

BACKGROUND

Drainage is the gradual removal of oil and gas from beneath a specified property by a
producing well on an adjoining property. Oil and gas are found in subsurface reservoirs and
tend to flow to areas of reduced pressure that surround a producing well, thus enabling the
oil and gas to be removed and drainage to occur. The rule of capture established by court
decisions protects the producer that removes oil and gas which have migrated across property
lines from any liability as long as the well itself does not trespass. Furthermore, the owner
of a tract of land acquires title to all oil and gas produced from that tract of land regardless
of whether such oil and gas migrated from adjoining lands.

The Code of Federal Regulations (25 CFR 211 and 212 and 43 CFR 3100) requires the
Bureau to ensure that Federal and Indian leases are protected from drainage of oil and gas
and to obtain compensation from the lessees for drainage losses. Specifically, the Bureau
can require a lessee of Federal or Indian lands to drill a protective well and produce oil or gas
to protect leased lands from drainage and to pay compensatory royalties for lost oil or gas
from the time drainage was known until protective measures are implemented. Any royalty
revenues related to the unleased lands are lost until the lands are leased. The standard
Federal and Indian lease agreements provide for drainage protection and require
compensation from the lessees for drainage losses.

Bureau Instruction Memorandum 93-287, “Application of the Statute of Limitations to Oil
and Gas Drainage Cases,” requires the Bureau to initiate collection action on compensatory
royalties related to drainage of leased lands within 6 years of the Bureau’s becoming aware
of the drainage to prevent the Bureau from losing the royalties because of the statute of
limitations.’ The Bureau’s drainage protection program procedures are described in
Appendix 1, During October 1992 through April 1998, the Minerals Management Service
collected compensatory royalties of $7.4 million that were specifically attributable to the
program.

The funds to manage the program are included in the Bureau’s Oil and Gas Management
subactivity, which is within the Energy and Minerals Management activity. The fiscal year
1997 budget for the subactivity was $52.1 million and included funding for
8 10 full-time-equivalent positions. The program has no separate budget or accounting line
item, and many of the program staff also have other duties. Consequently, the Bureau could
not account for, and we could not identify, specific program expenditures.

SCOPE OF AUDIT
This review was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that were considered necessary under the
circumstances. We reviewed the Departmental Report on Accountability for fiscal year
1996, which includes information required by the Federal Managers’ Financial Integrity Act,
and the Bureau’s annual assurance statement on management controls for fiscal year 1997
and determined that no material weaknesses were included in the reports which directly
related to the objective and scope of our review.

Our review, which consisted of auditing data from October 1993 through August 1998 and
other years as appropriate, was performed during May through September 1998 at the Bureau
offices in Lakewood and Durango, Colorado; Farmington, New Mexico; and Casper,
Wyoming. October 1993 was selected for review because it was the beginning of the last
fiscal year for which cases could be opened and still be within the 6-year statute of
limitations. We interviewed Bureau personnel responsible for administering the program and
conducted telephone interviews with various other Bureau offices (see Appendix 2). We
obtained, analyzed, and evaluated program statistical data from the 14 Bureau offkes that
had drainage protection responsibilities for October 1993 through August 1998 (see
Appendix 3).


‘Instruction Memorandum 93-287 expired on September 30. 1996. However, Bureau officials said that the
Bureau continues to follow the requirements.

                                                 2
PRIOR AUDIT COVERAGE

During the past 5 years, the General Accounting Office has not issued any reports concerning
the Bureau’s drainage protection program. However, the Office ofInspector General issued
the September 1993 report “Followup of Recommendations Pertaining to the Drainage
Protection Program, Bureau of Land Management” (No. 93-I- 1642) which was a followup
review of the seven recommendations contained in the September 1990 report “Drainage
Protection Program, Bureau of Land Management” (No. 90- 100). The followup report stated
that the Bureau had satisfactorily implemented six of the seven recommendations and had
kept the Department of the Interior informed on the progress of its implementation of the
remaining recommendation. The unimplemented recommendation required the Bureau to
revise the drainage regulations in the Code of Federal Regulations (43 CFR 3 100) to change
drainage protection responsibility from the operating rights owner to the lessee. Transfer of
responsibility from the operating rights owner to the lessee will enable the Bureau to
effectively track responsibility for drainage requirements, since operating rights are easily
and frequently transferred, making enforcement of the drainage requirements difficult. The
proposed rule making was expected to be published in the “Federal Register” in October
 1993 but was not published until January 1998.

                                RESULTS OF AUDIT
We found that the Bureau of Land Management generally managed its drainage protection
program effectively. Specifically, in fiscal year 1990, the Bureau had an estimated backlog
of 25,000 unresolved drainage cases at the 16 offices’ that had drainage protection programs.
To address the backlog, the Bureau issued new guidance for the program in November 1992
and increased the resources for the program. Consequently, the Bureau reduced the backlog
of unresolved drainage cases to 3,200 cases by September 30, 1994, and to 1,700 cases as
of March 3 1, 1998 (see Appendix 3). We also found that potential drainage situations were
effectively identified and evaluated and that corrective measures were implemented. As a
result, revenues estimated at $36 million were generated by the program during fiscal years
1995 to 1998 (through April 1998). However, we found that the Farmington (New Mexico)
Field Office did not collect all compensatory royalties or interest related to its drainage
program and that it reduced the priority of drainage cases on Indian lands. Bureau
Instruction Memorandum 93-287 requires that collection action begin within a 6-year time
period from the determination of drainage to preclude compensatory royalties from being lost
because of the statute of limitations. In addition, Bureau Instruction Memorandum 96-l 80,
“Bureauwide Interim Guidance Replacing the Oil and Gas Manual 3 160-2 - Drainage
Protection After August 23, 1996,” requires the field offices to submit drainage data to the
Minerals Management Service for the Service’s determination ofroyalties and interest owed.
Further, Bureau guidance requires that drainage cases related to Indian lands be given high


*As of September 1998, the Bureau had 14 offices that had drainage protection responsibilities. The
responsibility for the Bureau’s Wyoming drainage protection program, which was previously delegated to
individual field offices, was consolidated as a Wyoming State Office function at the Wyoming Reservoir
Management Group in Casper during 1993.

                                                  3
priority within the drainage program. However, when coal bed methane drilling activity
increased significantly in the Farmington area, the only area within the Bureau where
extraction ofcoal bed methane is a significant activity, the Bureau did not allocate sufficient
resources to effectively manage the work load, and a backlog of drainage cases developed
that was approaching the 6-year limit. Farmington Offtce offtcials said that they realized that
the normal process would not allow the timely processing of the drainage cases. Therefore,
to accelerate the royalty collection process and prevent the complete loss of compensatory
royalties, the Field Office entered into drainage settlement agreements,3 which were not in
compliance with the Bureau’s normal procedures to have the Minerals Management Service
determine and collect the royalties owed. While this procedure did result in royalties and
interest of $242,000 being collected, royalty revenues of $24,530 were not collected because
of the statute of limitations. Furthermore, interest on royalties estimated at $83,000 on the
three settlement agreements we reviewed was not collected because the Farmington Office
did not pursue the collection of interest owed, and at least 23 Indian drainage cases had not
been processed timely.

Settlement Agreements

Farmington Office officials said that they used settlement agreements because Federal
income tax incentives associated with drilling wells for the extraction of coal bed methane
gas deposits in the Farmington area caused the number of drainage cases to increase.
Specifically, the Crude Oil Windfall Profit Tax Act of 1980 (26 U.S.C. 29) provided a tax
credit for production of nonconventional fuels, which include coal bed methane gas. The tax
credits were due to expire in December 1992. Consequently, there was significant activity
up to that time, and the resultant production from those wells created the Farmington
Office’s backlog. For example, the Farmington Office’s drainage work load increased from
279 cases in 1994 to 423 cases4 in August 1998. Of the 423 drainage cases, an estimated 133
drainage cases were approaching the end of the 6-year period for initiating collection action.
The ability of the Farmington Office to manage this increased work load was affected by two
factors. First, because there was no uniform industry process for precisely determining the
extent of coal bed methane deposits, development of a process by Farmington Office
engineers was time consuming. Second, Farmington officials told us that because of
budgetary constraints, they were not able to hire the additional staff necessary to manage the
backlog.5 Accordingly, the Farmington Office implemented the drainage settlement
agreement process to expedite the processing of these older cases. The settlement
agreements eliminated forwarding the cases to the Minerals Management Service for
calculation of royalties and interest due by the lessee, which a Farmington Office offtcial


3 Drainage settlement agreements are negotiated between the Farmington Field Office and the lessee for a futed
amount that generally covers all compensatory royalties due up to the time the lessee drills protective wells.

4 Of the 423 cases, 354 cases involved potential coal bed methane drainage.

‘We did confii that in August 1998 the New Mexico State Office advertised for a petroleum engineer for the
Farmington Office, and State Office offkials said that the individual hired would be assigned to the drainage
program.

                                                      4
stated would take 2 or more years to process and that the statute of limitations would have
        6
expired during this time period.

During January through July 1998, the Field Offrce entered into three settlement agreements
involving 16 drainage cases. While the settlement process prevented the complete loss of
royalties, we found that it did not ensure that all revenues were collected. Specifically,
although the Farmington Office collected revenues of $242,000 (royalties of $206,016 and
partial interest of $35,984’ on the royalties) on these three settlement agreements, one
settlement agreement did not include estimated royalties of $24,530 because the statute of
limitations had expired. In addition, the three settlements excluded estimated interest of
$83,000 on the royalties for drainage that occurred during1987 through 1996.

The Farmington Field Office drainage protection program petroleum engineer stated that the
determination of coal bed methane reservoirs is “a new technology which few engineers
understand” and that only one individual in the Farmington Office had the knowledge and
expertise to reasonably estimate coal bed methane drainage. The engineer further stated that
he had developed the procedures and data used for determining drainage for coal bed
methane which were not reviewed and approved by Bureau management. Consequently,
when the Farmington Office entered into the agreements, the amounts did not include all
interest owed on the compensatory royalties. According to Farmington Office officials, the
full amount was not requested to make the agreements more favorable to the lessee, which
would reduce the possibility of appeal and facilitate an expeditious settlement.

We found that only one employee, a petroleum engineer, was responsible for all aspects of
the settlement, including identifying the drainage amounts, estimating the royalties due, and
negotiating with the lessee the final amount to be paid. Regarding technical reviews of
drainage cases, the Bureau’s Instruction Memorandum No. 96-180 states that “a sufficient
number of Quality Control Reviews must be conducted to ensure that program objectives are
being met.” The memorandum further provides that these reviews may be performed by
peers who have the expertise in “petroleum evaluations as applied to the Reservoir
Management Program.” However, the engineer’s work on the three settlement agreements
we reviewed, including the technical determinations related to the drainage amounts, had not
been reviewed. According to Farmington Office officials, the work was not reviewed
because of the lack of resources and of individuals who had the expertise to perform the
reviews and because of time constraints. Farmington Office officials said that they were
aware of the lack of separation of duties but that they wanted to complete the settlements
before the statute of limitations expired and all of the revenues were lost. Ln our opinion, the
lack of a technical review of the engineering estimates used to calculate the royalty amounts



6 We reviewed the only three coal bed methane assessments that were sent by the Farmington Office to the
Service in October 1995 and determined that the Service took more than 2 years to process and collect one
assessment and had not processed the other two assessments as of August 1998.

‘The Farmington Office used an average annual interest rate of 8 percent when it calculated the interest owed
on the royalty amount.

                                                      5
and the lack of separation of duties with regard to the preparation and negotiation of the
agreements did not provide adequate assurance that the amounts of drainage and related
royalties were determined adequately. In addition, the petroleum engineer stated that there
would be increased activity in the development of coal bed methane gas in other areas of the
country. In that regard, we believe that the personal knowledge of the program’s petroleum
engineer relating to determining coal bed methane drainage should be documented.
Documenting this process would allow the Farmington Office to train other engineers in the
process, thereby providing additional resources to its backlog and minimizing the recurrence
of backlogs in other Bureau offices.

Furthermore, the policies and procedures followed by the Farmington Office in negotiating
the settlement agreements, including the decision to forego interest, were not documented
and, as such, had not been reviewed and approved by Bureau management or the Solicitor’s
OffIce. According to Farmington Office officials, the Farmington Office will need to
continue to use settlement agreements until the backlog is reduced to a maintenance level.
After the Fannington Office documents the coal bed methane agreement policies and
procedures, we believe that the Bureau should review these policies and procedures and
make the changes necessary to ensure that all potential revenues are collected through the
settlement process.

Indian Lands Drainage Cases

The Farmington Office did not effectively process cases related to drainage from Indian
lands. Specifically, we found that the Indian lands’ drainage cases were not assigned a high
priority in the Farmington Office, as was required by Bureau procedures. Procedural Note 5
of the Bureau’s Instruction Memorandum No. 93-287 states that “all Indian drainage cases
are to be pursued regardless of their financial ‘significance,’ and Indian drainage cases
normally will continue to receive top priority over Federal cases.” Also, Instruction
Memorandum No. 96- 180 requires that the Bureau of Land Management (1) establish a
priority classification method which would “ensure that royalty is not permanently lost, due
to, for example, unleased lands” and (2) notify the Bureau of Indian Affairs to initiate leasing
or negotiate an agreement that would afford protection for the lease “if the administrative &
technical reviews indicate unleased Indian tribal or allotted lands are subject to drainage.”
(Emphasis added.) Bureau of Land Management officials stated that because the statute of
limitations does not apply to Indian lands, royalties associated with leased lands are never
completely lost.

However, we concluded that the Farmington Office was not timely performing all of the
technical reviews necessary to ensure that drainage on Indian lands was properly identified
and that drainage protection was pursued. Specifically, of the 56 active drainage cases for
Indian lands, 23 cases were established before or during fiscal year 1994. Of the 23 cases,
13 related to leased lands and 10 related to unleased lands as follows:

         - Leased Lands. Of the 13 cases related to leased lands, we reviewed 11 and found
that at the time of our review, there was no documentation in the files to support that

                                               6
preliminary technical reviews to determine whether drainage was occurring had been
performed for 9 cases. However, documentation supported that the required reviews had
been performed for two cases.

        - Unleased Lands. Of the 10 cases related to unleased lands, we reviewed 8 cases and
found that at the time of our review, there was no documentation in the files to support that
preliminary technical reviews to determine whether drainage was occurring had been
performed for 7 cases. However, documentation supported that the required reviews had
been performed for one case.

As a result of the delays in processing the Indian drainage cases, the Farmington Offtce did
not timely assess and collect revenues associated with drainage from leased Indian lands and
did not recovercompensatoryroyalties for drainage occurring on unleased Indian lands prior
to the lands being leased and protective wells being drilled.

Farrnington Office officials said that the priority on Indian lands was lowered because
drainage from the Indian lands was marginal, the Indian entities had not responded to the
Offrice’s initial drainage notifications, the Indian entities did not always inform the Bureau
when associated lands had been leased, and the Farmington Office was using its limited
resources to process high-revenue cases.

Recommendations

We recommend that the Director, Bureau of Land Management, ensure that the New Mexico
State Director:

    1. Documents the settlement agreement process and has it reviewed by Bureau
management and the Solicitor’s Offrce.

     2. Develops and implements internal controls to provide technical quality assurance
for drainage calculations and to provide for the separation of duties for the Farmington Field
Office’s drainage settlement process.

    3. Develops and provides coal bed methane drainage training to other petroleum
engineers at the Farmington Field Offtce to ensure that more than one individual has
expertise in this area.

     4. Develops and implements a plan to eliminate the Farmington Field Offrice’s current
backlog of Indian drainage cases, as well as the backlog of Federal cases. This plan should
include provisions to maintain the drainage program at a maintenance level after the current
backlog has been eliminated.




                                              7
Bureau of Land Management Response and Office of Inspector General
Reply
In the February 24,1999, response (Appendix 4) to the draft report from the Acting Director,
Bureau of Land Management, the Bureau concurred with all four recommendations but did
not present sufficient information for us to consider the recommendations resolved.
However, subsequent to the response, the Bureau provided additional information regarding
Recommendations 1 and 3. Based on the response and the additional information, we
consider Recommendations 1, 2, and 4 resolved but not implemented. Accordingly, these
recommendations will be referred to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation. Also based on the response and the additional
information, we consider Recommendation 3 resolved and implemented (see Appendix 5).

Regarding Recommendation 1, Bureau officials told us subsequent to the response that the
Bureau’s Washington Office will issue an instruction memorandum by June 1, 1999,
regarding the settlement agreement process and that instruction memoranda are routinely
reviewed by the Solicitor’s Office. According to Bureau officials, the Assistant Director,
Minerals, Realty, and Resource Protection, is responsible for implementation of this
recommendation.

Regarding Recommendation 3, Bureau officials stated subsequent to the response that the
coal bed methane training had been provided to Farmington Field Office staff.

Additional Comments on Audit Report
The Bureau also provided additional comments on our audit report. The Bureau’s comments
and our responses are as follows:

      - The Bureau stated that two Farmington officials, rather than one individual as stated
in our report, had the expertise to evaluate coal bed methane drainage cases. However, the
data we reviewed and the information obtained during our review in the Farmington Office
indicated that only one official was involved in making coal bed determinations for the
drainage program. Furthermore, Farmington Office officials stated that an additional
petroleum engineer was needed for the program to assist with the backlog and that the State
Office had begun to recruit for such an individual. If the Farmington Office had other
officials capable of performing these evaluations and eliminating the backlog, they were not
assigned to these duties.

     - The Bureau disagreed that the settlement process eliminated the forwarding of the
drainage cases to the Service for calculation of royalties and interest due by the lessee. The
Bureau stated that Minerals Management was an “active participant” in the settlement
process. However, the Bureau also said that there was no documentation in the files to
support that statement. The statement in the report referred to the Bureau’s procedures for
processing drainage cases as required by Bureau Instruction Memorandum No.90- 180, which
requires that the Service calculate the royalties due and send a bill for collection to the lessee

                                                8
for the amount calculated (see Appendix 1). We concluded that the settlement process was
created primarily to bypass this portion of the program’s procedures because, according to
Bureau officials, involving the Service would result in more time being expended and
therefore more royalties and interest being lost because of the statute of limitations.

      - The Bureau stated that the report indicated that the settlement process had not been
reviewed and approved by Bureau management. The Bureau hrther stated that the
Farmington Field Offlice Manager had the authority to approve such agreements and that the
agreements were approved by the Manager. Our concern regarding approval was that the
settlement process was not documented and, as such, could not be reviewed by Bureau
Headquarters to ensure that the process adequately protected the Government’s interests. We
did not question that the Farmington Field Office Manager had the authority to enter into
such agreements.

     - The Bureau stated that our report indicated that the Farmington Field Office did not
recover compensatory royalties for drainage occurring on unleased Indian lands. The Bureau
further stated that the Field Office, in accordance with Bureau guidelines, properly notified
the Bureau of Indian Affairs of potential drainage situations and that, as such, the Bureau of
Land Management was not required to take further action until the lands were leased.

Bureau ofLand Management guidelines require that the Bureau of Indian Affairs be notified
of potential drainage situations after the administrative and technical reviews have been
completed. Our review of the drainage files indicated that the Bureau of Indian Affairs was
being notified before a technical review was completed. Consequently, the Bureau of Indian
Affairs was being tasked with leasing lands that may not have had potential drainage
situations. Accordingly, we believe that the Bureau of Land Management needs to take
additional actions to provide the Bureau of Indian Affairs with more information on drainage
situations that is based on completed technical reviews.

Since the report’s recommendations are considered resolved, no fYi.u-ther response to the
Office of Inspector General is required (see Appendix 5).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification of each significant recommendation on which corrective
action has not been taken.

We appreciate the assistance of Bureau of Land Management personnel in the conduct of our
audit.




                                              9
                                                                                 APPENDIX 1

                             BUREAU DRAINAGE
                          PROTECTION PROCEDURES

The Bureau of Land Management’s drainage protection procedures for addressing potential
drainage situations as required by Bureau Instruction Memorandum No. 96-180,
“Bureauwide Interim Guidance Replacing the Oil and Gas Manual 3 160-2 - Drainage
Protection After August 23, 1996,” are as follows:

      1. To identify potential drainage situations, the responsible Bureau office performs an
initial well and administrative review of well activity to identify any well that, because of
its proximity to Federal or Indian lands and level of production, may present a potential
drainage situation. Once a potential drainage situation has been determined, the Bureau
establishes a drainage case and notifies the offended Federal or Indian lessee of the potential
drainage situation and drainage protection obligations and requests protective action or
technical data regarding the lessee’s evaluation of the drainage situation.

     2. The drainage case is subjected to technical--geologic and engineering--reviews to
determine the nature and extent of the drainage. When these reviews indicate that drainage
may be affecting unleased land, the Bureau of Land Management takes action to initiate
leasing activity for Federal lands or notifies the Bureau of Indian Affairs for Indian lands that
the land is subject to drainage and recommends that protective measures be taken. When
these technical reviews indicate that drainage may be affecting Federal or Indian leased
lands, the Bureau of Land Management issues a demand letter that informs the lessee of the
lessee’s responsibilities to protect the lease from drainage, defines the lessee’s options that
will resolve the drainage situation, and requires the lessee to submit a plan for protecting the
lease from drainage. At this time, the lessee may disagree as to whether the drainage is
occurring or that an economic protective well could have been drilled and may also disagree
on the extent to which the drainage is occurring.

     3. The Bureau then performs final technical analyses--geologic and reservoir
engineering/economic--to compare the Bureau’s data with the lessee’s submitted data.
Consequently, there may be technical-related negotiations with the lessee to arrive at a
mutually agreeable amount of drainage. Thereafter, a quality control technical review is
conducted, and a decision letter is sent to the lessee that informs the lessee of drainage
protective actions, if any, that are required.

     4. When the decision involves assessment of compensatory royalties, a copy of the
decision letter is sent to the Minerals Management Service’s Royalty Compliance Division,
which then calculates the royalties due Tom the lessee and sends a bill for collection to the
lessee for the royalty amount calculated. When the Service receives payment of the
compensatory royalties, it calculates the late payment interest due from the lessee and sends
a bill for collection to the lessee for the amount of interest calculated.


                                               10
                                                                  APPENDIX 2

                           BUREAU OFFICES
                       VISITED OR CONTACTED


          Office                                Location
Headquarters*                              Washington, D.C.

Alaska State*                              Anchorage, Alaska

California State*                          Sacramento, California

Colorado State                             Lakewood, Colorado
  San Juan Resource Area                   Durango, Colorado
  Montrose District *                      Montrose, Colorado

Eastern States*                            Minneapolis, Minnesota
  Jackson Field*                           Jackson, Mississippi
  Milwaukee Field*                         Milwaukee, Wisconsin

Montana State*                             Billings, Montana
  Dickinson Field*                         Dickinson, North Dakota

New Mexico State*                          Santa Fe, New Mexico
  Farmington Field                         Farmington, New Mexico
  Roswell Field*                           Roswell, New Mexico
  Tulsa Field*                             Tulsa, Oklahoma

Utah State*                                Salt Lake City, Utah

Wyoming State*                             Cheyenne, Wyoming
 Wyoming Reservoir Management Group        Casper, Wyoming




*Contacted only.




                                      11
                                                                                               APPENDIX 3


                  DRAINAGE PROTECTION PROGRAM CASE WORK LOAD
                  AT OFFICES THAT HAVE PROGRAM RESPONSIBILITIES

                                                                                            Percent of
                                                                                        Decrease/Increase*
                                                                                              From
         Office                 Location                    1990          1994   1998      1990 to 1998
                                                                 l   *                           **
Alaska State                   Anchorage, Alaska                             7     7

Bakersfield Field              Bakersfield, California     10.000         184     81          99%

Colorado State                 Denver, Colorado                  59        36     40          32%

Dickinson Field                Dickinson, North Dakota       587          257     96          84%

Farmington Field               Farmington, New Mexico        974          279    423          57%

Jackson Field                  Jackson, Mississippi              67          0     0         100%

Lewistown Field                Lewiston, Montana             806          162     99          88%

Miles City Field               Miles City, Montana           215           62     51          76%

Milwaukee Field                Milwaukee, Wisconsin          488          414    520           7%

Roswell Field                  Roswell, New Mexico          3,000         126     33          99%

San Juan Resource Area Durango, Colorado                     383          222     63          84%

Tulsa Field                    Tulsa , Oklahoma             3,105        1,073   168          95%

Utah State                     Salt Lake City, Utah          573             0     0         100%

Wyoming Reservoir
 Management Group              Casper, Wyoming              4,580                             98%

Total                                                      24,837                             93%


*
    Denotes increase in percentage.
**Work load data for Alaska were not available for 1990.




                                                            12
                                                                                     APPENDIX 4
                                                                                     Page 1 of 5


                 United States Department of the Interior
                                   BUREAU OF l.A!!D MANAGEMENT
                                        Washington, D.C. 20240
                                          http:/lww.blm.gov

                                                                        In Reply Refer To:
                                                                        1245 (WO-310)



                                        MEMORANDUM

To:           Assistant Inspector General for Audits

Through:      Sylvia V. Baca
              Acting Assistant S

From:         Tom Fry
              Acting Director, Bureau of Land Management

Subject:      Response to Draft Audit Report on the Drainage Protection Program, Bureau of
              Land Management (Assignment No. C-IN-BLM-002-98-D)

Thank you for the opportunity to respond to the subject draft audit report on the drainage
protection program of the Bureau of Land Management (BLM). We agree with the finding
resulting from the Office of the Inspector General (OIG) audit that the BLM has managed its
drainage protection program effectively. We also appreciate the assistance the OIG provided
through this audit to assist in our effort toward developing and managing an effective program.
However, we do have some concerns about how the BLM Farmington Field Office’s (FFO)
program was portrayed in the draft report. Our staff commented on many of these concerns
during the audit exit conference on December 17, 1998, and in subsequent correspondence to the
OIG.

During the past three years, the FFO program triggered the drilling of eight protective wells with
future royalty revenue generating potential of over $15 million. During the last year alone, over
$1 million has been collected as a result of compensatory royalty assessments. The FFO staff
has also committed resources to reducing its drainage case backlog to maintenance levels since
the audit was conducted in 1998. However, we realize that improvements can be made and
appreciate the OIG’s suggestions to make this an even better program.

Our specific comments on the draft audit report are offered as follows. The OIG states in its
draft audit report “only one individual in the Farmington Office had the knowledge and expertise
to reasonably estimate coal bed methane drainage.” Actually two out of three FFO staff
members have expertise in the evaluation of coal bed methane drainage cases. The draft report




                                                 13
                                                                                      APPENDIX 4
                                                                                      Page 2 of 5




                                                                                                 2

states that FFO “did not collect all compensatory royalties or interest related to its drainage
program,” as it relied heavily on the use of settlements. The decision to pursue settlements was
based on several factors to prevent potential royalty losses. In each settlement, the FFO was able
to get compensatory royalties and partial interest payments for the time periods in excess of the
period BLM provided actual drainage notification.

The draft audit report states “the settlement agreements eliminated forwarding the cases to the
Minerals Management Service (MMS) for calculation of royalties and interest due by the lessee.”
To the contrary, the MMS was an active participant in all settlements through its Office of
Collection and Enforcement. That office researched the issue and determined that drainage
settlements are not based on waiving any part of the principal or interest, but are accepted based
on the technical merits of the case, where issues like complexity of the reservoir, inconclusive
geology, new technology, and notification are questionable and subject to dispute. Although no
documentation of Mh4S’s involvement in the settlement process was evident in some of the cases
that the OIG reviewed during its audit, the FFO is implementing action to ensure that drainage
settlements are documented through signatures of officials representing parties to the settlement.

The draft report states the settlement process “had not been reviewed and approved by Bureau
management.” However, as provided for in BLM guidance, the authority to approve settlement
agreements has been delegated to the FFO Manager by the State Director. ln most cases, prior to
signing a drainage settlement, the FFO Manager requires that a review of the settlement
agreement be conducted by New Mexico State Office (NMSO) officials and the MMS. No
settlement agreement becomes final unless it is signed by delegated officials from the BLM.

The report states that “the Indian lands’ drainage cases were not assigned a high priority in the
Farmington Office.” The BLM’s guidelines provide for the processing of Federal drainage cases
which have a high potential for collecting significant revenue on an equal basis with Indian
drainage cases. Since the OIG completed its 1998 audit of the drainage protection program, the
FFO has been focusing on reviewing Indian drainage cases and the backlog for those cases has
been reduced by over 75 percent.

The report also states that the FFO “did not recover compensatory royalties for drainage
occurring on unleased Indian lands.” The FFO properly followed BLM guidelines to identify
potential drainage situations on unleased Indian lands and forwarded those cases to the Bureau of
Indian Affairs for leasing action. No further action by the BLM is required until the lands have
been leased.

All BLM field of&es with fluid mineral functions are doing an effective job in ensuring the
Federal and Indian oil and gas resources are being protected from drainage. The suggestions
provided in this draft audit report are being addressed as appropriate. Once more, we would like
to express our appreciation to the OIG for the tremendous effort it dedicated to conducting this




                                                14
                                                                                  APPENDIX 4
                                                                                  Page 3 of 5




audit. The implementation of the audit recommendations will provide valuable assistance in
ensuring that Federal and Indian oil and gas resources are protected from drainage.

If you have any questions, please contact Donnie Shaw, Geologist, at (202) 452-0382 or Gwen
Midgette, BLM Audit Liaison Officer, at (202) 452-7739.




Attachment




                                               15
                                                                                     APPENDIX 4
                                                                                     Page 4 of 5


                    RESPONSE TO DRAFT AUDIT REPORT
       DRAINAGE PROTECTION PROGRAM, BUREAU OF LAND MANAGEMENT
                              JANUARY 1999
                           (C-IN-BLM-002-98-D)

(We recommend that the Director, Bureau of Land Management, ensure that the New Mexico
State Director:)

Recommendation 1:

Documents the settlement agreement process and has it reviewed by Bureau management and the
Solicitor’s Office.

Response: The BLM concurs with this recommendation in part. We agree that the settlement
process should be documented and reviewed by Bureau management. An Information Bulletin
will be issued on the settlement process by the BLM’s NMSO by May 3, 1999.

However, since settlements are most often negotiated on the basis of interpretation of technical
data and procedures and not on legal issues, we do not believe that the Solicitors have to be
involved in this process unless there is a significant legal issue.

Responsible Official: Michelle Chavez, State Director, New Mexico State Office

Recommendation 2:

Develops and implements internal controls to provide technical quality assurance for drainage
calculations and to provide for the separation of duties for the Farmington Field Office’s
drainage settlement process.

Response: We concur with this recommendation. Appropriate management oversight and
quality control will be provided for through the Information Bulletin referenced in
Recommendation 1.

Responsible Official: Michelle Chavez, State Director, New Mexico State Office

Recommendation 3:

Develops and provides coal bed methane drainage training to other petroleum engineers at the
Farmington Field Office to ensure that more than one individual has expertise in this area.

Response: We concur with this recommendation. Expertise at this level of complexity requires
hands on experience. The FFO Manager will ensure that appropriate technical staff is provided
with the necessary experience to work coal bed methane drainage cases in coordination with
senior technical staff.

Responsible Official: Michelle Chavez, State Director, New Mexico State Office

                                                                                  Attachment I- 1

                                                16
                                                                                   APPENDIX 4
                                                                                   Page 5 of 5




Develops and implements a plan to eliminate the Farmington Field Office’s current backlog of
Indian drainage cases, as well as the backlog of Federal cases. This plan should include
provisions to maintain the drainage program at a maintenance level after the current backlog has
been eliminated.

Response: We concur with this recommendation. Although the majority of the backlog of
unresolved drainage cases has already been eliminated, the Farmington Field Ofice expects to
eliminate all of its backlog of Indian drainage cases by March 1, 1999. The New Mexico State
Director will submit an action plan to the Washington Office’s Assistant Director, Minerals,
Realty, and Resource Protection, also by June 1, 1999, that provides for maintaining the
drainage program at a maintenance level &er the current backlog has been eliminated.

Responsible OffG4: Carson W. Culp, Assistant Director, Minerals, Realty, and Resource
Protection




                                                                                Attachment 1-2
                                               17
                                                               APPENDIX 5


     STATUS OF AUDIT REPORT RECOMMENDATIONS

    Finding/                             .
Recommendation
  Reference             Status                  Action Reauired

  1,2, and 4     Resolved; not        No further response to the Office of
                 implemented.         Inspector General is required. The
                                      recommendations will be referred to
                                      the Assistant Secretary for Policy,
                                      Management and Budget for tracking
                                      of implementation.

                 Implemented.         No fiuther action is required.




                                 18
                  ILLEGAL OR WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                              Internet/E-Mail Address

                                      www.oig.doi.gov



                      Within the Continental United States

U.S. Department of the Interior                         Our 24hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D.C. 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Can’bbean Region

U. S . Department of the Interior                       (703) 2359221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U. S . Department of the Interior                       (671) 6476060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
 :   Toll Free Numbers:
.
      l-800-424-5081          E
 :                            E
 :    TDD l-800-354-0996
:                             f
:
:    FE/Commercial Numbers:
*
.     (202) 208-5300
:     TDD (202) 208-2420      E
:                             :
:
:
:
      HOTLINE :
:    1849 C Street, N.W.
:    hfail stop 5341
:
4    Washington, D.C. 20240
:
:
:
:
:
:
:
:
.
:
--
